A-1
APPENDIX
ORDERS
Harriss v. Commissioner, consolidated Nos. 12528-14
and 25358-14, United States Tax Court,
Memorandum Findings of Fact and Opinion entered
January 5, 2017
T.C. Memo. 2017-5
UNITED STATES TAX COURT
BRIAN E. HARRISS, Petitioner v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent
Docket Nos. 12528-14, 25358-14.
Filed January 5, 2017.
Brian E. Harriss, pro se.
Randall B Childs and Caroline R Krivacka, for
respondent.
MEMORANDUM FINDINGS OF FACT AND
OPINION
VASQUEZ, Judge: In these consolidated cases
respondent determined deficiencies, additions to tax,
and penalties with respect to Petitioner's 2010 and
2011 Federal income tax as follows:
SERVED Jan 05 2017

A-2
Add i ti fin s_to_to x
Year
2010
2011

Deficiency
$49,968
40,259

Penalty

sec.
sec.
sec.
6651(a)(1) 6651(a)(2) 6662(a)
$3,341.33 $3,427
$3,211.25
--2,569

After concessions,1 the issues for decision are: (1)
whether compensation petitioner received from his
employers is includible in income for the 2010 and
2011 tax years; (2) whether a distribution from
petitioner's individual retirement account (IRA) is
includible in income for the 2010 tax year; (3)
whether petitioner is liable for a 10% additional tax
on the IRA distribution under section 72(t) for the
2010 tax year; (4) whether petitioner is liable for an
addition to tax under section 6651(a)(1) for the 2011
tax year; (5) whether petitioner is liable for an
addition to tax under section 6651(a)(2) for the 2010
tax year; (6) whether petitioner is liable for accuracyrelated penalties under section 6662(a) for the 2010
and 2011 tax years; and (7) whether the Court should
impose a penalty on petitioner under section
6673(a)(1).2
FINDINGS OF FACT
Some of the facts have been stipulated and are so
found. The stipulation of facts and the attached
exhibits are incorporated herein by this reference.
1

Before trial respondent conceded that he had incorrectly
included a $29 dividend in petitioner's 2010 income and a $1,174
dividend in petitioner's 2011 income.
2
Unless otherwise indicated, all section references are to the
Internal Revenue Code (Code) in effect for the years in issue,
and all Rule references are to the Tax Court Rules of Practice
and Procedure.

A-3
Petitioner resided in. Alaska when he timely filed the
petitions.
Petitioner is a licensed engineer with bachelor's
and master's degrees from the Georgia Institute of
Technology. During 2010 petitioner worked as an
engineer for Bergaila & Associates, Inc. (Bergaila).
Bergaila paid petitioner $26,425 for the services he
performed in 2010. That same year petitioner
withdrew $28,250 from an IRA that he held at TD
Ameritrade. Petitioner was below age 59-1/2 in 2010.
At some point in 2010 not established by the
record, petitioner resigned from Bergaila and began
working as an engineer for CH2M Hill Alaska, Inc.
(CH2M). CH2M paid petitioner a salary of $128,970
in 2010 and $161,000.96 in 2011.
On February 16, 2013, petitioner filed Forms
1040, U.S. Individual Income Tax Return, for the
2010 and 2011 tax years via certified mail in a single
envelope addressed to respondent. On his 2010
return he reported zero wages. Petitioner also
reported a taxable amount of zero with respect to the
above-described IRA distribution. Petitioner attached
to his 2010 return three Forms 4852, Substitute [*4]
for Form W-2, Wage and Tax Statement, or Form
1099-R, Distributions From Pensions, Annuities,
Retirement or Profit-Sharing Plans, IRAs, Insurance
Contracts, etc. On his Forms 4852 petitioner: (1)
claimed that Bergaila had paid him zero wages and
withheld $6,984 in Federal income, Social Security,
and Medicare taxes; (2) claimed that CH2M had paid
him zero wages and withheld $36,429 in Federal
income, Social Security, and Medicare taxes, and (3)
reported a distribution of $28,250 from his IRA but
claimed the taxable amount was zero.
Petitioner also reported zero wages on his 2011

A-4
return. He attached to his 2011 return one Form
4852 in which he claimed that CH2M had paid him
zero wages and withheld $34,475 in Federal income,
Social Security, and Medicare taxes.
In a cover letter accompanying his returns,
petitioner explained that he was disputing
information returns prepared by Bergaila, CH2M,
and TD Ameritrade because "our non-federallyconnected work or business arrangement is an
entirely private agreement, not involving the exercise
of any federal privilege."
Respondent selected petitioner's 2010 and 2011
returns for examination. Following the examination,
respondent sent petitioner a timely notice of
deficiency for each tax year. The notice for 2010
included petitioner's unreported wages and IRA
distribution in income, determined a 10% additional
tax on [*5] petitioner's premature IRA distribution,
and determined an addition to tax under section
6651(a)(2) and an accuracy-related penalty under
section 6662. The notice for 2011 included petitioner's
unreported wages in income and determined an
addition to tax under section 6651(a)(1) and an
accuracy-related penalty under section 6662.
OPINION
I. Preliminary Matters
Petitioner argues that respondent bears the
burden of proof with respect to his unreported income
for both tax years. For the reasons below, we
disagree.
Generally, the Commissioner's determinations in
a notice of deficiency are presumed correct, and the
taxpayer bears the burden of proving that the
Commissioner's determinations are erroneous See
Rule 142(a); Welch v. Helvering, 290 U.S. 111, 115

A-5
(1933).3 Under section 6201(d), if a taxpayer asserts a
reasonable dispute with respect to an item of income
reported on an information return filed by a third
party and the taxpayer meets certain other
requirements, the Commissioner bears the burden of
producing reasonable and probative evidence, [*6] in
addition to the information return, concerning the
deficiency attributable to the income item.
Petitioner argues that we should set aside the
notices of deficiency because respondent failed to
satisfy the requirements of section 6201(d) when he
relied only on third-party information returns.
However, section 6201(d) is not applicable here
because petitioner's frivolous position that his wages
are not taxable does not constitute a "reasonable
dispute" with respect to an item of income. See, e.g.,
Nelson v. Commissioner, T.C. Memo. 2012-232, affd,
540 F. App'x 924 (11th Cir. 2013).
Petitioner also argues that the presumption of
correctness does not apply to the notices of deficiency
because respondent failed to establish an evidentiary
foundation linking him to income-producing activity.
In the Court of Appeals for the Ninth Circuit, to
which an appeal of these cases presumably would lie
absent a stipulation to the contrary, see sec.
7482(b)(1)(A), (2), the presumption of correctness does
not attach in cases involving unreported income
unless the Commissioner first establishes an
evidentiary foundation linking the taxpayer to the
alleged income-producing activity, see Weimerskirch
v Commissioner, 596 F.2d 358, 361-362 (9th Cir.
1979), rev'g 67 T.C. 672 (1977). The requisite
Petitioner has not shown entitlement to any shift in the burden
of proof to respondent pursuant to sec. 7491(a). SP Higbee v.
Commissioner, 116 T.C. 438, 440-441 (2001).
3

A-6
evidentiary foundation is minimal and need not
include direct evidence. See [*7] Banister v
Commissioner, T.C. Memo. 2008-201, affd, 418 F.
App'x 637 (9th Cir. 2011). Once the Commissioner
produces evidence linking the taxpayer to an incomeproducing activity, the burden shifts to the taxpayer
"to rebut the presumption of correctness of * * * [the
Commissioner's] deficiency determination by
establishing by a preponderance of the evidence that
the deficiency determination is arbitrary or
erroneous." Petzoldt v. Commissioner, 92 T.C. 661,
689 (1989); see also Hardy v Commissioner, 181 F.3d
1002, 1004 (9th Cir. 1999), §T.C. Memo. 1997-97.
Respondent has adequately established an
evidentiary foundation linking petitioner to his
employment activity and the IRA withdrawal.
Petitioner stipulated that he was compensated by
Bergaila and CH2M for his work as an engineer
during the years in issue. Petitioner also stipulated
that he withdrew funds from a TD Ameritrade
retirement account. In his response to respondent's
first request for admissions, petitioner admitted that
TD Ameritrade had characterized this account as an
IRA. Accordingly, respondent's determinations that
petitioner had unreported income and is liable for
deficiencies for 2010 and 2011 are presumed correct,
and petitioner bears the burden of proving that
respondent's determinations are erroneous See Rule
142(a)(1); Welch v Helvering, 290 U.S. at 115. [*8]
II. Unreported Wage Income
Petitioner concedes that he received the amounts
of compensation set out in the notices of deficiency.
However, petitioner argues that the compensation he
received in 2010 and 2011 was not taxable income
within the meaning of the law.

A-7
Section 61(a) defines gross income to include
"income from whatever source derived". More
specifically, section 61(a)(1) includes in an
individual's gross income any compensation for
services, interest payments, dividend payments, and
gains derived from dealings in property. Clearly,
petitioner's compensation from Bergaila and CH2M is
gross income for Federal income tax purposes See
Commissioner v Glenshaw Glass Co , 348 U.S. 426,
431 (1955) (stating that gross income includes all
accessions to wealth that are clearly realized and
under the control of the taxpayer); McNair v. Eggers,
788 F.2d 1509, 1510 (11th Cir. 1986) (describing the
taxpayer's argument that his wages were not income
as "patently frivolous"); Grimes v Commissioner, 82
T.C. 235, 237 (1984); Reiff v Commissioner, 77 T.C.
1169, 1173 (1981).
Petitioner's assertion to the contrary, that is, that
the payments made to him for his services are not
gross income, is frivolous and characteristic of
rhetoric that [*9] has been universally rejected by
this and other courts.4 See Wilcox v. Commissioner,
848 F.2d 1007 (9th Cir. 1988), afFg T.C. Memo. 1987225. The Court need not address petitioner's
assertions "with somber reasoning and copious
citation to precedent; to do so might suggest that
these arguments have some colorable merit." See
Petitioner acknowledges that "wages" are taxable but argues
that the term does not encompass the compensation he received
from his employers. This position has been previously rejected
by this Court as baseless and subject to the imposition of sec.
6673 penalties. See Waltner v Commissioner, T C Memo. 201435, ___ F. App'x ___, 2016 WL 5800492 (9th Cir. Oct. 5, 2016);
Nelson v. Commissioner, T C Memo. 2012-232, M, 540 F. App'x
924 (11th Cir. 2013).

4

A-8
Crain v Commissioner, 737 F.2d 1417, 1417 (5th Cir.
1984); Wnuck v Commissioner, 136 T.C. 498 (2011).
Consequently, we uphold respondent's determinations with respect to petitioner's wage income for
2010 and 2011.
III IRA Distribution
Petitioner argues that the $28,250 distribution he
received from his IRA is not taxable income. We
disagree.
Subject to certain exceptions, amounts distributed
from an IRA are includible in a taxpayer's gross
income as provided in section 72. Sec. 408(d)(1).
Petitioner, who has not established that an exception
applies, argues that his retirement account was not
an IRA. However, petitioner has offered no evidence
[*101 supporting this contention. Accordingly, the
distribution is includible in petitioner's gross income.
IV. Section 72(t) Tax
IRA distributions made before the taxpayer's
attaining the age of 59-1/2 that are includible in
income are generally subject to a 10% additional tax
unless an exception applies. See sec. 72(t)(1), (2)(A)(i).
Because the section 72(t) additional tax is a "tax" and
not a "penalty, addition to tax, or additional amount"
within the meaning of section 7491(c), the burden of
production with respect to the additional tax remains
on petitioner. See El v Commissioner, 144 T.C. 140,
148 (2015). Petitioner, who was under 59-1/2 years of
age in 2010, has neither argued nor established that
any of the statutory exceptions applies. See sec.
72(t)(2). Accordingly, the distribution is subject to the
10% additional tax under section 72(t).
V Additions to Tax
A Section 6651(a)(1)

A-9
Respondent determined that petitioner is liable
for the section 6651(a)(1) late-filing addition to tax for
the 2011 tax year. Section 6651(a)(1) imposes an
addition to tax for failing to file a return by the filing
deadline (as extended) unless such failure is due to
reasonable cause and not due to willful neglect.
Pursuant to [*111 section 7491(c), respondent has the
burden of production with respect to this addition to
tax. See Higbee v. Commissioner, 116 T.C. 438, 446
(2001).
Petitioner stipulated that he filed his 2011 return
on February 16, 2013, several months after the
extended filing deadline of October 15, 2012.
Consequently, respondent has met his burden of
producing evidence that the late-filing addition to tax
should be imposed for 2011. Petitioner has not
demonstrated that he had reasonable cause for his
failure to file a timely return. He is therefore liable
for the section 6651(a)(1) addition to tax for 2011.
B Section 6651(a)(2)
Respondent also determined that petitioner is
liable for the section 6651(a)(2) late-payment addition
to tax for the 2010 tax year. Section 6651(a)(2)
imposes an addition to tax for failure to pay the
amount of tax shown on a taxpayer's Federal income
tax return on or before the payment due date unless
such failure is due to reasonable cause and not due to
willful neglect. The section 6651(a)(2) addition to tax
applies only when an amount of tax is shown on a
return filed by the taxpayer or prepared by the
Secretary. Sec. 6651(a)(2), (g)(2); Cabirac v
Commissioner, 120 T.C. 163, 170 (2003), affd without
published opinion, 94 A.F.T.R. 2d (RIA) 2004-5490
(3d Cir. 2004). Pursuant to section 7491(c), [*121
respondent has the burden of production with respect

A-10
to this addition to tax. See Higbee v Commissioner,
116 T.C. at 446. Respondent has not carried his
burden here. Petitioner's 2010 return, which
respondent received and processed, shows a tax of
zero. There is nothing in the record to indicate that a
substitute for return (SFR) meeting the requirements
of section 6020(b) was ever prepared for the 2010 tax
year.5 We therefore hold that petitioner is not liable
for the section 6651(a)(2) addition to tax.
VI Accuracy-Related Penalty
Respondent also determined that petitioner is
liable for accuracy-related penalties under section
6662(a) for the 2010 and 2011 tax years.6 Pursuant to
section 6662(a) and (b)(1) and (2), a taxpayer may be
liable for a penalty of 20% [*13] on the portion of an
underpayment of tax attributable to: (1) negligence or
disregard of rules or regulations or (2) a substantial
understatement of income tax. Whether applied
because of a substantial understatement of income
'5 Over petitioner's objection respondent introduced a literal
transcript of account for petitioner's 2010 tax year. The literal
transcript contains no reference to any SFRs. Even if it-did, the
literal transcript does not establish that the requirements of sec.
6020(b) were satisfied. See Wheeler v. Commissioner, 127 T.C.
200, 210 (2006), affil, 521 F.3d 1289 (10th Cir. 2008); Gardner v
Commissioner, T C Memo. 2013-67, at *24.
6 For 2010 respondent determined in the notice of deficiency that
the underpayment was attributable to one or more of the
following: (1) negligence or disregard of rules or regulations, (2)
a substantial understatement of income tax, (3) a substantial
valuation misstatement, or (4) a transaction lacking economic
substance. For 2011 respondent determined in the notice of
deficiency that petitioner's underpayment was attributable to a
substantial understatement of income tax. In his answer
respondent raised the issue of negligence or disregard of rules or
regulations as another basis for the accuracy-related penalty for
2011.

A-11
tax or negligence or disregard of rules or regulations,
the accuracy-related penalty is not imposed with
respect to any portion of the underpayment as to
which the taxpayer acted with reasonable cause and
in good faith. Sec. 6664(c)(1). The decision as to
whether the taxpayer acted with reasonable cause
and in good faith depends upon all the pertinent facts
and circumstances. See sec. 1.6664-4(b)(1), Income
Tax Regs. Generally, the most important factor is the
extent of the taxpayer's effort to assess his or her
proper tax liability. Humphrey, Farrington &
McClain, P.C. v Commissioner, T.C. Memo. 2013-23;
sec. 1.6664-4(b)(1), Income Tax Regs.
The term "negligence" in section 6662(b)(1)
includes any failure to make a reasonable attempt to
comply with the Code and any failure to keep
adequate books and records or to substantiate items
properly. Sec. 6662(c); sec. 1.6662- 3(b)(1), Income
Tax Regs. Negligence has also been defined as the
failure to exercise, due care or the failure to do what a
reasonable person would do under the circumstances.
See Allen v. Commissioner, 92 T.C. 1, 12 (1989), affd,
925 F.2d 348, 353 (9th Cir. 1991); see also Neely v.
Commissioner, 85 T.C. 934, 947 [*141 (1985). The
term "disregard" includes any careless, reckless, or
intentional disregard. Sec. 6662(c).
Petitioner reported zero tax liabilities on his 2010
and 2011 returns. However, petitioner received
taxable wage income in both years and, as discussed
above, was liable -for Federal income tax on his
wages. Petitioner therefore had an underpayment for
each year within the meaning of section 6662(a).
Petitioner does not dispute that he worked during
2010 and 2011 and that he received payments from
his employers in the amounts set forth in the notices

A-12
of deficiency. In fact, petitioner acknowledges that he
received information statements from his employers
reporting these payments, but, instead of relying on
these statements, he attached to his returns Forms
4852 that reported zero wages.
As discussed above, it is well settled that wages
are taxable income and should be reported as such.
See, e.g., Wilcox v Commissioner, 848 F.2d at 10081009. Petitioner's position to the contrary
demonstrates not only a failure to comply reasonably
with the Code, but also negligence and a clear
disregard of rules or regulations. Petitioner did not
act with reasonable cause and in good faith.
Accordingly, the Court holds that petitioner is liable
for accuracy-related penalties under section 6662(a)
for the 2010 and 2011 tax years. [*151
VII Section 6673
Section 6673(a) authorizes the Tax Court to
impose a penalty not in excess of $25,000 on a
taxpayer for proceedings instituted primarily for
delay or in which the taxpayer's position is frivolous
or groundless. While petitioner advanced frivolous
arguments in this proceeding, we decline to impose a
section 6673 penalty against him at this time.
However, we warn petitioner that continuing to
advance frivolous or groundless arguments may
result in substantial penalties in the future.
We have considered the parties' arguments and, to
the extent not addressed herein, conclude that they
are moot, irrelevant, or without merit.
To reflect the foregoing,
Appropriate orders will be
issued, and decisions will be
entered under Rule 155

A-13
Harriss v. Commissioner of Internal Revenue, Tax
Court No. 12528-14, Decision entered May 2, 2017
UNITED STATES TAX COURT
WASHINGTON, DC 20217
BRIAN E. HARRISS,
Petitioner,
v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent.

) Docket No. 12528-14

)
)

DECISION
Pursuant to the opinion of the Court filed January
5, 2017, and incorporating herein the facts recited in
respondent's revised computation as the findings of
the Court, it is
ORDERED and DECIDED that there is a
deficiency in income tax due from petitioner for the
taxable year 2011 in the amount of $39,848.00;
That there is an addition to tax due from
petitioner for the taxable year 2011, under the
provisions of I.R.C. section 6651(a)(1), in the amount
of $3,108.50; and
That there is a penalty due from petitioner for the
taxable year 2011, under the provisions of I.R.C.
section 6662(a), in the amount of $2,486.80.
(Signed) Juan F. Vasquez
Judge
Entered: MAY 2, 2017
Served: May 2, 2017

A-14
Harriss v. Commissioner of Internal Revenue, Tax
Court No. 25358-14, Decision entered May 2, 2017
UNITED STATES TAX COURT
WASHINGTON, DC 20217
BRIAN E. HARRISS,
Petitioner,

) Docket No. 25358-14

v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent.

)
)

DECISION
Pursuant to the opinion of the Court filed January
5, 2017, and incorporating herein the facts recited in
respondent's computation as the findings of the
Court, it is
ORDERED AND DECIDED: That there is a
deficiency in income tax due from petitioner for the
taxable year 2010 in the amount of $49,958.00;
That there is no addition to tax due from
petitioner for the taxable year 2010, under the
provisions of I.R.C. § 6651 (a) (2) ; and
That there is a penalty due from petitioner for the
taxable year 2010, under the provisions of I.R.C. §
6662(a), in the amount of $3,425.00.
(Signed) Juan F. Vasquez
Judge
Entered: MAY 2, 2017
Served: May 2, 2017

A-15
FILED
AUG 27, 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRIAN EDWARD HARRISS,
Petitioner-Appellant,
v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent-Appellee.

No. 17-72233
Tax Ct. Nos. 1252814, 25358-14
MEMORANDUM*

Appeal from a Decision of the
United States Tax Court
Submitted August 19, 2019 **
Before: SCHROEDER, PAEZ, and HURWITZ,
Circuit Judges.
Brian Edward Harriss appeals pro se from the
Tax Court's decision upholding the Commissioner of
Internal Revenue's determination of deficiency for tax
years 2010 and 2011. We have jurisdiction under 26
U.S.C. § 7482(a)(1). We review de novo the Tax
Court's conclusions of law and for clear error its fact* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

A-16
ual findings. Meruelo v. Comm'r, 691 F.3d 1108, 1114
(9th Cir. 2012). We affirm.
The Tax Court properly upheld the
Commissioner's deficiency determinations for tax
years 2010 and 2011 because the record showed that
Harriss had earned taxable income, and the legal
basis for Harriss's argument to the contrary was
frivolous. See 26 U.S.0 § 61(a)(1) (explaining that
"gross income" includes "compensation for services");
United States v. Romero, 640 F.2d 1014, 1016 (9th
Cir. 1981) (compensation for labor or services, paid in
the form of wages or salary, has been universally held
by the courts to be income, and subject to income tax).
The Tax Court did not err by imposing penalties
against Harriss for filing an untimely tax return for
2011 and for inaccurately reporting his income for tax
years 2010 and 2011. See 26 U.S.C. § 6651(a)(1)
(addition appropriate when taxpayer fails to file
timely taxes unless such failure was due to
reasonable cause and not due to willful neglect); id. §
6662(a) (imposing penalty for negligence or disregard
of rules or regulations).
AFFIRMED.

A-17
CONSTITUTIONAL PROVISIONS
U.S. Constitution, Article 1, Section 2, Clause 3
Representatives and direct Taxes shall be
apportioned among the several States....
U.S. Constitution, Article 1, Section 8
The Congress shall have power to lay and collect
taxes, duties, imposts and excises, ...; but all
duties, imposts and excises shall be uniform
throughout the United States;....To make all laws
which shall be necessary and proper for carrying
into execution the foregoing powers....
U.S. Constitution, Article 1, Section 9
No capitation, or other direct, tax shall be laid,
unless in proportion to the census or enumeration
herein before directed to be taken.
U.S. Constitution, Amendment I
Congress shall make no law... abridging the
freedom of speech, ...; or the right of the people ...
to petition the government for a redress of
grievances.
U.S. Constitution, Amendment V
No person shall be....deprived of life, liberty, or
property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
U.S. Constitution, Amendment XVI
The Congress shall have power to lay and collect
taxes on incomes, from whatever source derived,
without apportionment among the several states,
and without regard to any census or
enumeration.

A-18

STATUTES
Revenue Act of 1862 (37th Congress, Sess. II. Ch.
119. 1862, pp. 472-473)
Sec. 86 And be it further enacted, That on and after
the first day of August, eighteen hundred and sixty
two, there shall be levied, collected, and paid on all
salaries of officers, or payments to persons in the
civil, military, naval, or other employment or service
of the United States, including senators and
representatives and delegates in Congress, when
exceeding the rate of six hundred dollars per annum,
a duty of three per centum on the excess above the
said six hundred dollars; and it shall be the duty of
all paymasters, and all disbursing officers, under the
government of the United States, or in the employ
thereof, when making any payments to officers and
persons as aforesaid, or upon settling and adjusting
the accounts of such officers and persons, to deduct
and withhold the aforesaid duty of three per centum,
and shall, at the same time, make a certificate stating
the name of the officer or person from whom such
deduction was made, and the amount thereof, which
shall he transmitted to the office of the Commissioner
of Internal Revenue, and entered as part of the
internal duties; and the pay-roll, receipts, or account
of officers or persons paying such duty, as aforesaid,
shall he made to exhibit the fact of such payment....
Sec. 90 And be it further enacted, That there shall be
levied, collected, and paid annually, upon the annual
gains, profits, or income of every person residing in
the United States, whether derived from any kind of
property, rents, interest, dividends, salaries, or from

A-19
any profession, trade, employment, or vocation
carried on in the United States or elsewhere, or from
any other source whatever, except as hereinafter
mentioned. if such annual gains, profits, or income
exceed the sum of six hundred dollars, and do not
exceed the sum of ten thousand dollars, a duty of
three per centum on the amount of such annual
gains, profits, or income over and above the said sum
of six hundred dollars; if said income exceeds the sum
of ten thousand dollars, a duty of five per centum
upon the amount thereof exceeding six hundred
dollars; and upon the annual gains, profits, or income,
rents, and dividends accruing upon any property,
securities, and stocks owned in the United States by
any citizen of the United States residing abroad,
except as hereinafter mentioned, and not in the
employment of the government of the United States,
there shall be levied, collected, and paid a duty of five
per centum.
Internal Revenue Code 1986, 26 U.S.C. §61. Gross
income defined.
(a) General definition Except as otherwise provided
in this subtitle, gross income means all income from
whatever source derived, including (but not limited
to) the following items:
Compensation for services, including fees,
commissions, fringe benefits, and similar items;
Gross income derived from business;
Gains derived from dealings in property;
Interest;
Rents;
Royalties;
Dividends;
Alimony and separate maintenance payments;

A-20
Annuities;
Income from life insurance and endowment
contracts;
Pensions;
Income from discharge of indebtedness;
Distributive share of partnership gross
income;
Income in respect of a decedent; and
Income from an interest in an estate or trust.
Statutes from which §61(a) of the I.R.C. of 1986 is
derived:
Revenue Act of 1921 (67th Congress, Sess. Ch. 136, p.
238), Sec. 213.
That for the purposes of this title (except as
otherwise provided in section 233) the term "gross
income"—
(a) Includes gains, profits, and income derived
from salaries, wages, or compensation for personal
service (including in the case of the President of
the United States, the judges of the Supreme and
inferior courts of the United States, and all other
officers and employees, whether elected or
appointed, of the United States, Alaska, Hawaii,
or any political subdivision thereof, or the District
of Columbia, the compensation received as such),

Classification Act of 1923, Sixty-Seventh Congress,
Sess. IV, p. 1488 (1923), Chap. 265 [repealed in 1949;
but text of Rev. Act of 1938 enacted when these
provisions were still in force], Sec. 2.
...The term "department" means an executive
department of the United States Government, a

A-21
governmental establishment in the executive
branch of the United States Government which is
not a part of an executive department, the
municipal government of the District of Columbia,
the Botanic Garden, Library of Congress, Library
Building and Grounds, Government Printing
Office, and the Smithsonian Institution.
The term "position" means a specific civilian office
or employment, whether occupied or vacant, in a
department other than the following: [list of
exceptions]
The term "employee" means any person
temporarily or permanently in a position.
The term "service "means the broadest division of
related offices and employments.
The term "compensation" means any salary, wage,
fee, allowance, or other emolument paid to an
employee for service in a position.
Revenue Act of 1938, Sec. 22(a).
"Gross income" includes gains, profits, and income
derived from salaries, wages, or compensation for
personal service, of whatever kind and in
whatever form paid, or from professions,
vocations, trades, businesses, commerce, or sales,
or dealings in property, whether real or personal,
growing out of the ownership or use of or interest
in such property; also from interest, rent,
dividends, securities, or the transaction of any
business carried on for gain or profit, or gains or
profits and income derived from any source
whatever. In the case of Presidents of the United
States and judges of courts of the United States

A-22
taking office after June 6, 1932, the compensation
received as such shall be included in gross income;
and all Acts taxing the compensation of such
Presidents and judges are hereby amended
accordingly.
Internal Revenue Code of 1939 (italicized language
added by amendment by the Public Salary Tax Act of
1939, sec. 1), Sec. 22(a).
"Gross income" includes gains, profits, and income
derived from salaries, wages, or compensation for
personal service (including personal service as an
officer or employee of a State, or any political
subdivision thereof, or any agency or
instrumentality of any one or more of the
foregoing), of whatever kind and in whatever form
paid, or from professions, vocations, trades,
businesses, commerce, or sales, or dealings in
property, whether real or personal, growing out of
the ownership or use of or interest in such
property; also from interest, rent, dividends,
securities, or the transaction of any business
carried on for gain or profit, or gains or profits and
income derived from any source whatever. In the
case of Presidents of the United States and judges
of courts of the United States taking office after
June 6, 1932, the compensation received as such
shall be included in gross income; and all Acts
taxing the compensation of such Presidents and
judges are hereby amended accordingly. In the
case of judges of courts of the United States who
took office on or before June 6, 1932, the
compensation received as such shall be included in
gross income.

A-23
Internal Revenue Code of 1986, 26 U.S.C. §3121.
Definitions.
Wages For purposes of this chapter, the term
"wages" means all remuneration for employment,
including the cash value of all remuneration
(including benefits) paid in any medium other
than cash; except that such term shall not
include— [list of exclusions]
Employment For purposes of this chapter, the
term "employment" means any service, of
whatever nature, performed (A) by an employee
for the person employing him, irrespective of the
citizenship or residence of either, (i) within the
United States, or (ii) on or in connection with an
American vessel or American aircraft under a
contract of service which is entered into within the
United States or during the performance of which
and while the employee is employed on the vessel
or aircraft it touches at a port in the United
States, if the employee is employed on and in
connection with such vessel or aircraft when
outside the United States, or (B) outside the
United States by a citizen or resident of the
United States as an employee for an American
employer (as defined in subsection (h)), or (C) if it
is service, regardless of where or by whom
performed, which is designated as employment or
recognized as equivalent to employment under an
agreement entered into under section 233 of the
Social Security Act; except that such term shall
not include—[22 enumerated exceptions with
subparts]....
(e) State, United States, and citizen
For purposes of this chapter—

A-24
State
The term "State" includes the District of
Columbia, the Commonwealth of Puerto Rico,
the Virgin Islands, Guam, and American
Samoa.
United States
The term "United States" when used in a
geographical sense includes the
Commonwealth of Puerto Rico, the Virgin
Islands, Guam, and American Samoa....
(f) American vessel and aircraft
For purposes of this chapter, the term "American
vessel" means any vessel documented or
numbered under the laws of the United States;
and includes any vessel which is neither
documented or numbered under the laws of the
United States nor documented under the laws of
any foreign country, if its crew is employed solely
by one or more citizens or residents of the United
States or corporations organized under the laws of
the United States or of any State; and the term
"American aircraft" means an aircraft registered
under the laws of the United States....
(h) American employer
For purposes of this chapter, the term "American
employer" means an employer which is—
the United States or any instrumentality
thereof,
an individual who is a resident of the
United States,
a partnership, if two-thirds or more of the
partners are residents of the United States,
a trust, if all of the trustees are residents of
the United States, or

A-25
(5) a corporation organized under the laws of
the United States or of any State.
Internal Revenue Code of 1986, 26 U.S.C. §3401.
Definitions.
(a) Wages For purposes of this chapter, the term
"wages" means all remuneration (other than fees
paid to a public official) for services performed by
an employee for his employer, including the cash
value of all remuneration (including benefits) paid
in any medium other than cash; except that such
term shall not include remuneration paid—[list of
exclusions]
Employee For purposes of this chapter, the
term "employee" includes an officer, employee, or
elected official of the United States, a State, or
any political subdivision thereof, or the District of
Columbia, or any agency or instrumentality of any
one or more of the foregoing. The term "employee"
also includes an officer of a corporation.
Employer For purposes of this chapter, the
term "employer" means the person for whom an
individual performs or performed any service, of
whatever nature, as the employee of such person,
except that—
(2) in the case of a person paying wages on
behalf of a ... foreign corporation, not engaged
in trade or business within the United States,
the term "employer" (except for purposes of
subsection (a)) means such person.
Statutes from which §3401(a) of the I.R.C. of 1986 is
derived:

A-26
The Current Tax Payment Act of 1943, sec. 2(a)
(adding new subchapter D to Ch. 9 of the I.R.C. of
1939), Sec. 1621
As used in this subchapter(a) The term "wages" means all remuneration
(other than fees paid to a public official) for
services performed by an employee for his
employer, including the cash value of all
remuneration paid in any medium other than
cash; except that such term shall not include
remuneration paid—[list of exclusions]
The term "employee" includes an officer,
employee, or elected official of the United States, a
State, Territory, or any political subdivision
thereof, or the District of Columbia, or any agency
or instrumentality of any one or more of the
foregoing. The term "employee" also includes an
officer of a corporation.
The term "employer" means the person for
whom an individual performs or performed any
service, of whatever nature, as the employee of
such person,
except that— ...
(2) in the case of a person paying wages on
behalf of a ... foreign corporation, not engaged
in trade or business within the United States,
the term "employer" (except for the purposes of
subsection (a)) means such person.
Internal Revenue Code of 1986, 26 U.S.C. §6051.
Receipts for employees.
(a) Requirement Every person required to deduct
and withhold from an employee a tax under
section 3101 or 3402, or who would have been

A-27
required to deduct and withhold a tax under
section 3402 ... or every employer engaged in a
trade or business who pays remuneration for
services performed by an employee, including the
cash value of such remuneration paid in any
medium other than cash, shall furnish to each
such employee in respect of the remuneration paid
by such person to such employee during the
calendar year, on or before January 31 of the
succeeding year, ... a written statement showing
the following:...
(3) the total amount of wages as defined in
section 3401(a),
(5) the total amount of wages as defined in
section 3121(a), ...
26 U.S.C. §6201. Assessment authority. (Enacted in
Taxpayer Bill of Rights 2, Pub.L. 104-168, 110 Stat.
1452, 1463, enacted July 30, 1996).
(d) Required reasonable verification of information
returns.
In any court proceeding, if a taxpayer asserts a
reasonable dispute with respect to any item of
income reported on an information return filed
with the Secretary under subpart B or C of part
III of subchapter A of chapter 61 by a third party
and the taxpayer has fully cooperated with the
Secretary (including providing, within a
reasonable period of time, access to and inspection
of all witnesses, information, and documents
within the control of the taxpayer as reasonably
requested by the Secretary), the Secretary shall
have the burden of producing reasonable and

A-28
probative information concerning such deficiency
in addition to such information return.
26 U.S.C. §7491. Burden of proof (The Internal
Revenue Service Restructuring and Reform Act of
1998, Pub. L. 105-206, 112 Stat. 685, enacted July 22,
1998, Sec. 3001)
(a) Burden shifts where taxpayer produces
credible evidence
(1) General rule If, in any court proceeding, a
taxpayer introduces credible evidence with respect
to any factual issue relevant to ascertaining the
liability of the taxpayer for any tax imposed by
subtitle A or B, the Secretary shall have the
burden of proof with respect to such issue.
Internal Revenue Code of 1986, 26 U.S.C. §7701.
Definitions.
(a) When used in this title, where not otherwise
distinctly expressed or manifestly incompatible with
the intent thereof —
(4) Domestic The term "domestic" when applied to a
corporation or partnership means created or
organized in the United States or under the law of
the United States or of any State unless, in the case
of a partnership, the Secretary provides otherwise by
regulations.
United States The term "United States" when
used in a geographical sense includes only the States
and the District of Columbia.
State The term "State" shall be construed to
include the District of Columbia, where such

A-29
construction is necessary to carry out provisions of
this title.
[Amendments
1960—Subsec. (a)(9), (10). Pub. L. 86-624, § 18(i), (j),
struck out reference to the Territory of Hawaii.
1959—Subsec. (a)(9). Pub. L. 86-70, § 22(g),
substituted "the Territory of Hawaii" for "the
Territories of Alaska and Hawaii".
Subsec. (a)(10). Pub. L. 86-70, § 22(h), substituted
"Territory of Hawaii" for "Territories".]....
Statutes from which §7701(a)(4), (9) and (10) of the
I.R.C. of 1986 are derived:
Revenue Act of 1938 (52 Stat. 447, 583), Sec. 901
....(4) The term "domestic" when applied to a
corporation or partnership means created or
organized in the United States or under the law of
the United States or of any State or Territory....
(10) The term "United States" when used in a
geographical sense includes only the States, the
Territories of Alaska and Hawaii, and the District of
Columbia.
Internal Revenue Code of 1939 (enacted as Revised
Statutes of 1873, Sec. 3140)
....(10) The word "State" shall be construed to include
the Territories and the District of Columbia, where
such construction is necessary to carry out provisions
of this title.

A-30
Internal Revenue Code of 1986, §7701. Definitions.
(a) When used in this title, where not otherwise
distinctly expressed or manifestly incompatible with
the intent thereof—....
(26) Trade or business The term "trade or business"
includes the performance of the functions of a public
office.
Statutes from which 26 U.S.C. §7701(a)(26) is
derived:
Internal Revenue Code of 1939, Sec. 48
When used in this chapter—....
(d) Trade or business The term "trade or business"
includes the performance of the functions of a public
office.
26 U.S.C. §7701(c) (enacted in Revenue Act of 1924,
68th Cong. Sess I, Ch. 234, 1924, Sec. 2(b))
The terms "includes" and "including" when used in a
definition contained in this title shall not be deemed
to exclude other things otherwise within the meaning
of the term defined.

REGULATIONS
26 C.F.R. §601.106(0(1)
An exaction by the U.S. Government, which is not
based upon law, statutory or otherwise, is a taking of
property without due process of law, in violation of
the Fifth Amendment to the U.S. Constitution....

